i

Joint Appendix
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Entered: January 24, 2019
JESSIE D. MCDONALD,

)
)

Petitioner,)
)
)
)

v.

FEDERAL COMMUNICATIONS )
COMMISSION and TENNESSEE)
ELECTIONS COMMISSION,
)
Respondent. )

No. 3:19-cv-00072
Aleta A. Trauger,
Judge

)

ORDER
Before the court are petitioner Jessie D. McDonald’s
(1) Petition for Writ of Mandamus and Prohibition,
which the court construes as a complaint against the
Federal Election Commission (“FCC”) and Tennessee
Election Commission, challenging an FCC rule that
excludes independent political candidates from the
FCC’s “equal time” provision that applies to major party
App., P. 14

i

candidates (Doc. No. 1); (2) Application to Proceed in
District Court without prepaying fees or costs (Doc. No.
2); and (3) Motion for Leave to File Accompanying
Petition (Doc. No. 3).
In September 2005, the undersigned entered an
Orderbarring petitioner Jessie D. McDonald from filing
any future civil litigations in forma pauperis. McDonald
v. Summers, No. 3:05-cv-0243 (M.D. Tenn. Sept. 15,
2005) (Doc. No. 25) (Memorandum and Order accepting
report and recommendation) (“September 2005 Order”).
In June 2011, in an order entered in the same
proceeding, the court assessed a $1,000.00 sanction
against McDonald for continuing to file frivolous
pleadings in this court in violation of Rule 11 and
previous court orders. McDonald v. Summers, No. 3:05cv-0243 (M.D. Tenn. June 13, 2011) (Doc. No. 68)
(Memorandum

and

Order

accepting

report

and

recommendation) (“June 2011 Order”), affd sub nom
McDonald v. Cooper, 471 F. App’x 494, 495 (6th. Cir.
2012). In June 2011 Order, the court expressly barred
McDonald from “filing any further litigation in this court
until all outstanding sanctions in this and other cases
App., P. 15

i

are paid; and that any future cases filed by the
petitioner in this District not to accept for filing absent a
specific order by a District Judge allowing such a filing ”
June 2005 Order at 5.
The

September

2005

Order

established

that

McDonald is not authorized to proceed in forma pauperis
in a civil matter in this court. The June 2011 Order
established that he is not entitled to ursue a civil matter
in this court at all unless he has paid in full the sanction
assessed against him in 2011. The Clerk of Court
confirms that McDonald has paid $525 towards the
$1,000.00 sanction.
Accordingly, the in forma pauperis application Doc.
No. 2) and Motion for Leave (Doc. No. 3) are both
DENIED, and this case is DISMISSED under Rule
41(b) for failure to comply with previous orders.
It is so ORDERED.
Aleta A. Trauger,
United States District Judge

App., P. 16

i

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Entered: April 12, 2019
JESSIE D. MCDONALD

)
)

Petitioner,)
)

v.

)
)

FEDERAL COMMUNICATIONS )
COMMISSION and TENNESSEE )
ELECTIONS COMMISSION,
)
Respondent. )

No. 3:19-cv-00072
3:05-cv-00243
Aleta A. Trauger,
Judge

)

ORDER
The court is in receipt of petition Jessie McDonald’s
Motion for Leave of Court, which he seeks to file in Case
Nos. 3:05-cv-00243 and 3:19-cv-00072. Attached to the
motion are other proposed motions and exhibits. The
Clerk is DIRECTED to docket the Motion for Leave of
Court in both referenced cases and to maintain the
App., P. 17

i

attachments submitted with it as manually filed (nonscanned) exhibits,

in accordance with the court’s

ordinary policy of retention.
In his most recent motion, vexatious litigant Jessie D.
McDonald seeks the court’s permission to file a separate
Motion for Relief from judgment, in which he continues
to challenge the court’s previous orders imposing
sanctions and denying and dismissing with prejudice his
2005 petition for writ of error coram nobis. He also seeks
permission to file an Amended Application for Writ of
Error Coram Nobis (in case No. 3:05-cv-00243) and an
Amended

Complaint

against

the

Federal

Communications Commission and Tennessee Election
Commission (in case No. 3:19-cv-00072). The purported
basis for his Motion for Relief from Judgment is that the
Sixth Circuit notified him in orders in July and August
2018 that he had the option of filing such a motion in
this court. See In re McDonald, No. 18-1566 (6th Cir. July
17, 2018).
Although the Sixth Circuit indeed made reference to
the petitioner’s ability to file a motion for relief as one of
the grounds for its denial of his petition for writ of
prohibition in that court, seeking to prohibit
App., P. 18

i

enforcement of the district court’s order, this court finds
that any attempt to file a motion for relief from
judgment now is untimely and clearly frivolous. The
Motion for Leave of Court is DENIED.
This court has previously notified the petitioner,
many times, that, if he did not “cease filing frivolous
motions in this matter, “the court would schedule a
criminal contempt hearing. (See, e.g., Case No. 3:05-cv0243, Doc. Nos. 68, 90, 106). Both matters in which the
petitioner seeks to file new pleadings are closed. In Case
No. 3:19-cv-00072, the time for filing an appeal has
expired. The petitioner is reminded again that the
sanctions and the previous Orders entered in this case
remain in effect. While the court is generally hesitant to
devote any more time than strictly necessary to dealing
with a vexatious litigant who already has consumed too
much of the court’s limited resources, continued
frivolous filings in either referenced case or the filing of
new civil cases without paying the previously assessed
sanctions may well result in criminal contempt
proceedings.

App., P. 19

i

It is so ORDERED.
Entered this 12th day of April 2019.
/s/ Aleta A. Trauger,
UNITED STATES DISTRICT JUDGE

App., P. 20

JUDICIAL COUNCIL OF THE SIXTH CIRCUIT
MICHIGAN - OHIO - KENTUCKY - TENNESSEE

In re:

*

Complaint of Judicial Misconduct

* No. 06-18-90024
*
*
*

ORDER
On Petition to Review an Order of Dismissal
Pursuant to 28 U.S.C. §357 and Rule 18 of the Rules
for Judicial

Conduct and Judicial

Disability

Proceedings, the complainant has filed a petition for
review of an order entered by the Acting Chief Judge on
August 15, 2018, dismissing the complainant’s complaint
of judicial

misconduct

pursuant

to

28

U.S.C.

§352(b)(l)(A)(ii) & (iii) and Rule 11(c)(1)(B) and (C) of
the Rules for Judicial-Conduct and Judicial-Disability
Proceedings.
The petition for review was considered by the Judicial
Council of the Sixth Circuit pursuant to Rule 19 of the
App., P. 21

i

Rules for the Judicial-Conduct and Judicial-Disability
Proceedings. All eligible members of the council having
voted for affirmance of the dismissal of the complaint,
the order of dismissal will be affirmed.
It is therefore ORDERED that the order of dismissal
of the complaint be affirmed pursuant to 28 U.S.C. §357
and Rule 19(b) of the Rules for Judicial-Conduct and
Judicial-Disability Proceedings.
/s/ Karen Nelson Moore
Circuit Judge
Date: May 3. 2019

App., P. 22

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
.JESSIE D- MCDONALD,

)
)
)
)
)
)
)
)
)

Petitioner,
Y.

PAUL G. SUMMERS,
Respondent.

No. 3:05-0243
Judge Trauger

MEMORANDUM AND ORDER
Presently pending before the court is the Magistrate Judge’s Report and Recommendation
(R&R) entered on May 12, 2011 (Docket No. 62), to which the petitioner filed timely objections
(Docket No. 65).
STANDARD OF REVIEW
Under Rule 72(b), Fed. R. Civ. P., and 28 U.S.C. § 636(b)(1), the court is required to make
a de novo determination of the portions of the Magistrate Judge’s recommendations to which
objections have been made. The District Judge may accept, reject, or modify recommended
decisions, receive further evidence, or recommit the matter to the Magistrate Judge with instructions.
ANALYSIS
Recommendation 1
The Magistrate Judge recommends that the petitioner's motions to vacate (Docket No. 53)
and for summary judgment (Docket No. 61) should be denied as frivolous, and that this case should
remain closed. (Docket No. 62 at pp. 1, 5).
In support of this recommendation, the Magistrate Judge cites the petitioner s various
litigation efforts since the 1970s concerning his 1973 conviction as well as other litigation not
involving the 1973 conviction. (Id. at p. 2)(citing Docket Nos. 22, 25, 58). The court agrees with
the Magistrate Judge that the petitioner’s most recent submissions to the court (Docket Nos . 53 and

Case 3:05-cv-00243 Document 68

Filed 06/13/11

A 0&P a )Jt X

Pi

Page 1 of 8 PagelD #: 212

61) are more of the same. (Id. at p.2). That is to say, the petitioner continues to file frivolous
motions in a closed case, despite the court’s clear instructions to the contrary.
In opposition to this recommendation, the petitioner outlines yet again the reasons why he
believes his 1973 conviction should be overturned. (Docket No. 65). The petitioner, however, is
well aware that his continued efforts to set aside his 1973 conviction are futile. The court’s order
of March 16,2007 — issued many years and court orders ago — specifically held: “[ijnasmuch as the
petitioner has brought literally hundreds of frivolous actions in the federal courts, he is credited with
knowing that, because this case has been dismissed with prejudice, he may file a notice of appeal
or an appropriate post-judgment motion - but nothing else.” (Docket No. 37 at pp. 1 -2). Lest there
was

any ambiguity, the court’s order of April 27, 2011 clearly stated:

“[A]t some point the

Petitioner must accept the fact that his 1973 conviction is final insofar as the courts go.” (Docket
No. 58 at p. 3). That order goes on to state: “His [the petitioner’s] conviction, as far as the courts
are concerned is FINAL.” (Docket No. 58 at p. 4).
As the Magistrate Judge points out, the petitioner’s latest motions (Docket Nos. 53 and 61)
are in clear violation ofthe court’s prior order. The court agrees that these motions are frivolous and
vexatious. Accordingly, the recommendation that the petitioner’s motions to vacate (Docket No.
53) and for summary judgment (Docket No. 61) be denied as frivolous is ACCEPTED.
Recommendation 2
Next, the Magistrate Judge recommends that the petitioner be assessed a $ 1,000 sanction for
continuing to file frivolous pleadings in violation of Rule 11 and this court’s orders in this matter.
(Docket No. 62 at p. 4).
As noted by the Magistrate Judge, the petitioner has a lengthy litigation history in this court
and in other courts. (Id. at pp. 2-4). He has been specifically admonished by this court that, “should

2

Case 3:05-cv-00243 Document 68

Filed 06/13/11

Page 2 of 8 PagelD #: 213

he attempt to bring any further actions in this court that seek to overturn his 1973 conviction,
appropriate monetary sanctions will be imposed against him.” (Docket No. 25 at p. 4)(emphasis

added). In addition, as noted by the Magistrate Judge, the petitioner previously has been issued a
similar sanction in another case in this district. (Id.) Judge Wiseman, who imposed those sanctions,
warned the petitioner that “if the sanctions imposed by this Order do not serve to prevent his filing
of frivolous pleadings in the future, then more severe sanctions may be imposed by the Court.”
McDonaldv. Yellow Cab, No. 3:89-cv-688 (M.D. Tenn. 1989)(DocketNo. 14 at pp. 2-3). In finding
that amount ($240.00) was not sufficient to deter the petitioner from filing further vexatious
motions, the Magistrate Judge now recommends the imposition of “an amount four times the current
filing fee ...as a sanction. (Docket No. 62 at p.4).
In his objections to the Magistrate Judge’s recommendation, the petitioner argues that Judge
Wiseman lacked jurisdiction to impose sanctions against the petitioner in McDonald v. Yellow Cab,
No. 3:89-cv-688. (Docket No. 65 at p. 1). The petitioner also argues that, in imposing sanctions
against the petitioner, Judge Wiseman acted with bias and prejudice. (Id. at p.2).

Finally, the

petitioner claims that he “simply did not know whether to pay the clerk or the attorney of record and
neither attempted any further communications on the matter.” (Id.)
The court finds that the petitioner’s arguments are without merit.’ It is well established that

'In its Order dismissing the action as frivolous and ordering sanctions against the petitioner, Judge Wiseman
wrote:

[T] his case represents a pattern and course of conduct on the part
of the plaintiff. ...
The Court takes judicial notice of its own records. The Court
finds that the plaintiff has filed 65 lawsuits in this Court, but has
prevailed in none ofthem. In fact, the overwhelming majority of
the cases have been disposed of as frivolous or malicious claims
without any trial on the merits.. . . [T]he Court [also] notes that
the plaintiff has abused the application for extraordinary writs to
the United Sates Supreme Court to the point that the Supreme
Court has barred him filing any further in forma pauperis

3

Case 3:05-cv-00243 Document 68

Filed 06/13/11

Page 3 of 8 PagelD #: 214

federal courts have inherent powers to impose appropriate sanctions to deter future frivolous
lawsuits and/or relitigation of the same lawsuit and frivolous and vexatious litigation. See Johnson
v. Johnson, 2006 WL 1429673, No. 1:90-CV-175 (W.D. Mich. May 23, 2006)(citing Cauthon v.
Rogers, 116 F.3d 1334, 1337 (10th Cir.1997); Wrenn v. Vanderbilt Univ. Hosp., Nos. 94-5453,
94-5593,1995 WL 111480, at * 3 (6th Cir. Mar. 15,1995); accord Feathers v. Chevron U.S.A., Inc.,
141 F.3d 264, 269 (6th Cir.1998); Telechron, Inc. v. Intergraph Corp., No. 95-1039, 1996 WL
370136, at * 2 (6th Cir. July 2,1996)).

44 4

[0]ne acting pro se has no license to harass others, clog

the judicial machinery with meritless litigation, and abuse already overloaded court dockets.’”
Bradley v. Wallrad, No. 1:06 cv 246, 2006 WL 1133220, at *1 n.2 (S.D. Ohio Apr. 27, 2006)
(quoting Patterson v. Aiken, 841 F.2d 386, 387 (11th Cir. 1988)); see Moore v. Hillman, Nos.

petitions for extraordinary writs.. ..
This man, if he were joined by others, would paralyze the
judicial system of this nation. He continues to abuse the right of
all citizens to guaranteed access to the courts. This most
important right finds its roots in the Magna Carta’s guarantee of
access to the courts ‘without sale, denial or delay.’ This abuse
must not continue.
Therefore, the Court finds that sanctions are appropriate for
plaintiff’s violation of Rule 11 by the filing of this lawsuit.
Plaintiff shall be assessed double the ordinary costs for the filing
of this suit, that is two times one hundred twenty dollars, or two
hundred forty dollars. Second, the Clerk shall not accept any
further filings from the plaintiff, Jessie D. McDonald, until the
court is personally advised that the sanctions here imposed have
been paid in full. Finally, the Clerk is hereby ORDERED to

assign all pleadings filed by the plaintiff to Chief Judge Thomas
Wiseman, Jr., in order that his future activity before this court
may be efficiently monitored.
Plaintiff is hereby given notice that if the sanctions imposed by
this Order do not serve to prevent his filing of frivolous
pleadings in the future, then more severe sanctions may be
imposed by the Court.
Jessie D. McDonald v. Yellow Cab Metro, Inc., No. 3:89-0668 (M.D. Tenn. Oct. 10,1989)(Docket No. 14 at pp. 2-3)
(underline in the original, internal citations omitted).
4

Case 3:05-cv-00243 Document 68

Filed 06/13/11 Page 4 of 8 PagelD #: 215

4:06-cv-43,4:06-cv-45,2006 WL 1313880, at *4 (W.D. Mich. May 12, 2006).
Because the instant petitioner has continued to plague this court for decades with frivolous
and vexatious litigation and has been warned on multiple occasions by at least two District Judges
that additional, more severe sanctions would be imposed ifthe petitioner persisted in his efforts, the
Magistrate Judge’s second recommendation is ACCEPTED. The petitioner is hereby ASSESSED
a $1,000 sanction for continuing to file frivolous pleadings in violation of Rule 11 and this court’s
prior orders in this matter.
Recommendation 3
The Magistrate Judge also recommends that the petitioner “be barred from filing any further
litigation in this court until all outstanding sanctions in this and other cases are paid; and that any
future cases filed by the petitioner in this District not be accepted for filing absent a specific order
by a District Judge allowing such a filing.” (Docket No. 62 at p. 4).
It is clear that this court has not only the authority but the responsibility to prevent litigants
from unnecessarily encroaching on judicial machinery needed by others. Rickels v. Cupp, No. 3:07
CV 1987,2007 WL 2344761, at *3 (N.D. Ohio Aug. 14,2007)(citing Procup v. Strickland, 792 F.2d
1069, 1073 (11th Cir. 1986)). To achieve these ends, the United States Court of Appeals for the
Sixth Circuit has approved enjoining vexatious and harassing litigants by requiring them to obtain
leave of court before submitting additional fi lings. See e.g., Rickels, 2007 W12344761; Filipas v.
Lemons, 835 F.2d 1145 (6th Cir. 1987); Wrenn v. Vanderbilt Univ. Hosp., Nos. 94-5453, 94-5593,
1995 WL 111480 (6th Cir. Mar. 15, 1995) (authorizing a court to enjoin harassing litigation under
its inherent authority and the All Writs Act, 28 U.S.C. § 1651(a) (citations omitted)). Indeed, in
2002, the United States Supreme Court said of the instant petitioner:
‘As petitioner has repeatedly abused this Court’s
process, the Clerk is directed not to accept any further
5

Case 3;05-cv-0Q243 Document 68

Filed 06/13/11

Page 5 of 8 PagelD #: 216

A/fi. (n)

petition in non criminal matters from petitioner unless
the docketing fees required ... is [s/c] paid
(Docket No. 22 at p. 6)(emphasis in the original omitted). The Order quoted above followed a
similar Order in 1989, in which the Supreme Court took the unprecedented action of barring the
petitioner prospectively from filing any further wits in forma pauperis that pertain to his 1973
conviction. (Docket No. 22 at pp. 4-5).
Without doubt, Mr. McDonald has established a pattern of filing submissions that are
patently frivolous and vexatious. Furthermore, it is apparent that, unless he is enjoined, he will
continue to file repetitive frivolous actions in our court in an attempt to overturn his 1973
conviction. Accordingly, the Magistrate Judge’s recommendation (1) to bar the petitioner from filing
any future civil actions in this court until all outstanding sanctions in this and other cases are paid
and (2) that any future cases filed by the petitioner in this District not be accepted for filing absent
a specific order by a District Judge allowing such a filing is ACCEPTED.
Recommendation 4
Finally, the Magistrate Judge recommends that the court set a criminal contempt hearing

under the provisions of 18 U.S.C. § 401 for “disobedience or resistance to its lawful writ, process,
order, rule, decree or command” in accordance with Rule 42 of the Federal Rules of Criminal
Procedure. (Docket No. 62 at pp. 4-5). The Magistrate Judge acknowledges that he makes this
recommendation “with some reluctance as the criminal contempt procedure will unfortunately
consume more of the Court’s time and efforts as well as, in all likelihood, necessitate the services
of an Assistant United States Attorney to prosecute the matter.

(Id. at p. 5). Even so, the

Magistrate Judge states that he believes such a recommendation is warranted because “sanctions and
warnings so far have been totally ineffective.'’ (Id.)
6

Case 3:Q5-cv-00243 Document 68

Filed 06/13/11 Page 6 of 8 PagelD #: 217

M r/9

It is well within the court’s authority to schedule such a hearing. The court further finds that
a contempt hearing is appropriate under the circumstances outlined herein and in the court’s prior
orders in this case. However, the court also agrees with the Magistrate Judge that the criminal
contempt procedure would consume even more of the court’s scarce time and resources. Therefore,
and only because of the strain on the court’s time and resources, the court will not set a criminal

contempt hearing at this time. However, to be clear, should the petitioner fail to comply with
the court’s prior orders regarding the filing of frivolous and vexatious litigation and/or fail to
submit the imposed sanction of $1,000, the court will schedule a criminal contempt hearing,
post haste.
The Magistrate Judge’s fourth recommendation is ACCEPTED as MODIFIED above.
CONCLUSION
After reviewing the record thoroughly, including the R&R and the documents filed by the
petitioner in response thereto, the court is of the opinion that the Magistrate Judge’s conclusions are
correct, as modified herein. Accordingly, the R&R is ACCEPTED as MODIFIED, and made the
findings of fact and conclusions of law of this court.
The court certifies pursuant to 28 U.S.C. § 1915(a)(3) that an appeal from this decision
would not be taken in good faith.
Finally, the Clerk is DIRECTED to provide a copy of this order to each District Judge and
Magistrate Judge in the Middle District of Tennessee. The Clerk is further DIRECTED to provide
aco py of this Order to the intake clerks and pro se staff attorneys. The Clerk is further DIRECTED
to instruct the intake clerks to forward any future actions brought by the petitioner to the pro se staff
attorneys — regardless of any filing fee paid — for initial review in accordance with this order.

7

Case 3:05-cv-00243 Document 68

Filed 06/13/11 Page 7 of 8 PagelD #: 218

It is so ORDERED.

Wi

/

Aleta A. Trauger
//
United States District Judge

8

Case 3:05-cv-0Q243

Document 68

Filed 06/13/11

Page 8 of 8 PagelD #: 219

M fv)

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
jessie d.

McDonald,

Petitioner,
v.
FEDERAL COMMUNICATIONS
COMMISSION and TENNESSEE
ELECTIONS COMMISION,
Respondents.

)
)
)
)
)
)
)
)
)
)
)

No. 3:19-cv-00072
Judge Aleta A. Trauger

ORDER
Before the court are petitioner Jessie D. McDonald’s (1) Petition for Writ of Mandamus
and Prohibition, which the court construes as a complaint against the Federal Communications
Commission (“FCC”) and Tennessee Elections Commission, challenging an FCC rule that
excludes independent political candidates from the FCC’s “equal time” provision that applies to
majority party candidates (Doc. No. 1); (2) Application to Proceed in District Court Without
Prepaying Fees or Costs (Doc. No. 2); and (3) Motion for Leave to File Accompanying Petition
(Doc. No. 3).
In September 2005, the undersigned entered an Order barring petitioner Jessie D.
McDonald from filing any future civil litigation in forma pauperis. McDonald v. Summers, No.
3:05-cv-0243 (M.D. Tenn. Sept. 15, 2005) (Doc. No. 25) (Memorandum and Order accepting
report and recommendation) (“September 2005 Order”). In June 2011, in an order entered in the
same proceeding, the court assessed a $1,000 sanction against McDonald for continuing to file
frivolous pleadings in this court in violation of Rule 11 and previous court orders. McDonald v.

Case 3:19-cv-00072 Document 5 Filed 01/24/19 Page 1 of 2 PagelD #: 18

Summers, No. 3:05-cv-0243 (M.D. Tenn. June 13, 2011) (Doc. No. 68) (Memorandum and Order
accepting report and recommendation) (“June 2011 Order”), aff'd sub nom McDonald v. Cooper,
471 F. App’x 494, 495 (6th Cir. 2012). In the June 2011 Order, the court expressly barred
McDonald from “filing any further litigation in this court until all outstanding sanctions in this and
other cases are paid; and that any future cases filed by the petitioner in this District not be accepted
for filing absent a specific order by a District Judge allowing such a filing.” June 2005 Order at 5.
The September 2005 Order established that McDonald is not authorized to proceed in
forma pauperis in a civil matter in this court. The June 2011 Order established that he is not entitled
to pursue a civil matter in this court at all unless and until he has paid in full the sanction assessed
against him in 2011. The Clerk of Court confirms that McDonald has paid only $525 toward the
$1,000 sanction.
Accordingly, the in forma pauperis application (Doc. No. 2) and the Motion for Leave
(Doc. No. 3) are both DENIED, and this case is DISMISSED under Rule 41(b) for failure to
comply with previous court orders.
It is so ORDERED.

m

Aleta A. Trauger
//
United States District Judge

2

Case 3:19-cv-00072 Document 5 Filed 01/24/19 Page 2 of 2 PagelD #; 19

‘4*

j£i

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION

jessie d.

McDonald,

Petitioner,
v.
PAUL G. SUMMERS et al.,
Respondents.

)
)
)
)
)
)
)
)
)
)

Case Nos. 3:05-cv-00243
3:19-cv-00072
budgie Aleta A. Trauger

ORDER
The court is in receipt of petitioner Jessie McDonald’s Motion for Leave of Court, which
he seeks to file in Case Nos. 3:05-cv-00243 and 3:19-cv-00072. Attached to the motion are other
proposed motions and exhibits. The Clerk is DIRECTED to docket the Motion for Leave of
Court in both referenced cases and to maintain the attachments submitted with it as manually
filed (non-scanned) exhibits, in accordance with the court’s ordinary policy of retention.
In his most recent motion, vexatious litigant Jessie D. McDonald seeks the court’s
permission to file a separate Motion for Relief from Judgment, in which he continues to
challenge the court’s previous orders imposing sanctions and denying and dismissing with
prejudice his 2005 petition for the writ of error coram nobis. He also seeks permission to file an
Amended Application for Writ of Error Coram Nobis (in case No. 3:05-cv-00243) and an
Amended Complaint against the Federal Communications Commission and Tennessee Elections
Commission (in Case No. 3:19-cv-00072). The purported basis for his Motion for Relief from
Judgment is that the Sixth Circuit notified him in orders entered in July and August 2018 that he

Case 3:05-cv-00243 Document 110 Filed 04/12/19 Page 1 of 2 PagelD #: 391

2

had the option of filing such a motion in this court. See In re McDonald, No. 18-1566 (6th Cir.
July 17, 2018).
Although the Sixth Circuit indeed made reference to the petitioner’s ability to file a
motion for relief from judgment as one of the grounds for its denial of his petitions for a writ of
•

prohibition in that court, seeking to prohibit enforcement of the district court’s order, this court
finds that any attempt to file a motion for relief from judgment now is untimely and clearly
frivolous. The Motion for Leave of Court is DENIED.
This court has previously notified the petitioner, many times, that, if he did not “cease
filing frivolous motions in this matter,” the court would schedule a criminal contempt hearing.
(See, e.g., Case No. 3:05-cv-0243, Doc. Nos. 68, 90, 106.) Both matters in which the petitioner
seeks to file new pleadings are closed. In Case No. 3:05-cv-0243, all appeals have been
exhausted and no further action will be taken in this case. In Case No. 3:19-cv-0072, the time for
filing an appeal has expired. The petitioner is reminded again that the sanctions and the previous
Orders entered in this case remain in effect. While the court is generally hesitant to devote any
more time than strictly necessary to dealing with a vexatious litigant who already has consumed
too much of the court’s limited resources, continued frivolous filings in either referenced case or
the filing of new civil cases without paying the previously assessed sanctions may well result in
criminal contempt proceedings.
It is so ORDERED.
ENTER this 12th day of April 2019.

ALETA A. TRAUGER [/
UNITED STATES DISTRICT JUDGE

Case 3:05-cv-00243 Document 110 Filed 04/12/19 Page 2 of 2 PagelD #: 392

